20“6546

IN THE SUPREME COURT OF THE UNITED STATES

Case No. 20

JOHN C. NIMMER,
Petitioner,

I

Vs.
PETITION FOR
WRIT OF CERTIORARI

HON. MICHAEL G. HEAVICAN,
Chief Justice
of the Nebraska Supreme Court
in his official capacity;

(From the United States Court
HON. STEPHANIE F. STACY, Justice of Appeals for the Eighth
Circuit)
of the Nebraska Supreme Court
in her official capacity;
HON. LINDSEY MILLER-LERMAN,
Justice of the Nebraska Supreme Court
in her official capacity;
Submitted by,
HON. WILLIAM B. CASSEL, Justice
of the Nebraska Supreme Court
in his official capacity;

John C. Nimmer
1429 S. Grandview Ave. #8
Papillion, NE 68046
402-345-8040
Pro Se

HON. JONATHAN J. PAPIK, Justice
of the Nebraska Supreme Court
in his official capacity;
HON. JEFFREY J. FUNK, Justice
of the Nebraska Supreme Court
in his official capacity;

HON. JOHN R. FREUDENBERG, Justice
of the Nebraska Supreme Court
in his official capacity;
MARK A. WEBER, Counsel for Discipline

1

QUESTION PRESENTED
The questions presented arise out of separation of powers. Under 42
USC 1983 Petitioner sued in US District Court (Dist. Nebr.) the justices of
the Nebraska Supreme Court and its Counsel for Discipline for taking his
license to practice law (property) without due process of law. The Due
Process and Privileges and Immunities clauses of the Fourteenth
Amendment to the US Constitution, and Article V Sec. 4 (states required to
have a Republican Form of Government), mandate separation of powers in
the taking of private property. The gravamen of Petitioner’s US District
Court case was the total lack of separation in the Nebraska attorney
disciplinary discipline process between the judicial functions of the Nebraska
Supreme Court in determining (then sanctioning) if attorneys have violated
legal ethical rules also legislated by them, where the executive functions of
investigating and prosecution are conducted by their Counsel for Discipline—
who is directly employed and supervised by them. Petitioner’s facial claim
was brought in US District Court after the Nebraska Supreme Court revoked
his license, but before all state proceedings including a motion for rehearing
were concluded. The questions presented are1. Does Rooker-Feldman* doctrine bar Petitioner’s 42 USC 1983 US
District Court claim where Petitioner pled a facial as opposed to an as
applied challenge?
*Rooker v. Fidelity Trust Co.. 263 U.S. 413 (1923); District of Columbia Court
of Anneals v. Feldman. 460 U.S. 462 (1983).

2

2. If Rooker-Feldman is inapplicable because Petitioner pled a facial as
opposed to as applied challenge, did Petitioner have standing to bring
his 42 USC 1983 US District Court claim?
3. If Petitioner inadvertently pled in the US District Court a 42 USC
1983 as applied challenge, were the state court proceedings
“concluded” to bar Petitioner’s claim under Rooker-Feldman?
There is no meaningful opportunity for attorneys to defend themselves
from allegations of misconduct where a state’s highest court legislates
attorney conduct, where its Counsel for Discipline both investigates and
prosecutes misconduct, and where the court also adjudicates and punishes
misconduct. Without the ability to mount a meaningful defense, the attorney
disciplinary process may be weaponized by opposing counsel or those wishing
to deter an attorney from advocating causes of his client or of his own.
Lawyers who represent unpopular clients and/or advocate for racial justice,
religious freedom, LGBTQ rights, free speech, and other causes may then be
improperly sidelined through the abuse of an attorney disciplinary process
devoid of meaningful due process. Upon information and belief this
happened to the Petitioner. Lawyers who mount a defense in a Nebraska
disciplinary proceeding, instead of accepting the Counsel for Discipline’s
recommended sanctions, are severely punished. Defendant lawyers are never
exonerated by the Nebraska Supreme Court—which for a fair system would
be statistically improbable.

3

RELATED PROCEEDINGS
State Ex. Rel. Counsel for Discipline v. Nimmer, S17-111, 300 Neb. 906
(2018)
Nimmer v. Heavican, et. al, 4'-18-cv-3123 (Dist. Neb)
Nimmer v. Heavican, et. al, 19-2426 (8th Cir.)
TABLE OF CONTENTS
Questions Presented:

2

Related Proceedings-

4

Table of Contents:

4

Table of Authorities:

5

Citations of and Hyperlinks to Orders and Opinions:

6

Basis of Jurisdiction:

6

Constitutional and Statutory Provisions Involved:

6

Statement of the Case:

7

Reasons for Granting the Writ:

7

Rule 33 Compliance:

10

Certificate of Filing and Service-'

10

4

>

TABLE OF AUTHORITIES
US Constitution
Article IV Sec. 4

2,7

Amendment XIV Sec. 1

1, 2, 6, 7
Federal Cases

District of Columbia Court of Anneals v. Feldman.

2, 3, 7, 8

460 U.S. 462 (1983)
Dornheim v. Sholes, 430 F.3d 919 (8th Cir. 2005)

9

Exxon Mobil Corn, v. Saudi Basic Industries Corn,,
544 U.S. 280 (2005)

8, 9

Federacion de Maestros de Puerto Rico v. Junta de
Relaciones, 410 F.3d 17, 24 (1st Cir. 2005)

9

Mosbv v. Ligon, 418 F.3d 927 (8th Cir. 2005)

7,8

Nimmer v. Heavican. et. al, 4-18~cv~3123 (Dist. Neb)

3, 6

Nimmer v. Heavican, et. al, 19-2426 (8th Cir.)

2, 3, 7, 8

Federal Statutes
28 U.S.C. § 1254(1)

6

28 USC 1331

7

42 USC 1983

2, 3, 7
State Cases

State Ex. Rel. Counsel for Discipline v. Nimmer.
S17-111, 300 Neb. 906 (2018)

5

3

CITATIONS OF AND HYPERLINKS TO ORDERS AND OPINIONS
September 4, 2020 Complaint, Nimmer v. Heavican, et. al. 4:i8-cv-3123 (Dist.
Neb). See https://ecf.ned.uscourts.gov/docl/11314062860
June 6, 2019 Memorandum and Order, Nimmer v. Heavican. et. al. 4‘-18-cv
3123 (Dist. Neb). See https://ecf.ned.uscourts.gov/docl/11314253775
Nimmer v. Heavican. et. al, 19-2426 (8th Cir.):
A. May 1, 2020 Opinion and Judgment. See
https://ecf.ca8.uscourts.gov/n/beam/servlet/TransportRoom?servlet=Sho
wDoc&caseId-94365&dktType-dktPublic&dls id-00813979895&casel
d=94365
B. June 10, 2020 Order Denying En Banc and Panel Rehearing. See
https'-//ecf.ca8.uscourts.gov/n/beam/servlet/TransportRoom
C. June 17, 2020 Mandate. See
https://ecf.ca8.uscourts.gov/n/beam/servlet/TransportRoom
BASIS OF JURISDICTION
Petitioner seeks review of the 8th Circuit May 1, 2020 Opinion and
Judgment affirming the Dist. of Nebr.’s June 6, 2019 Dismissal of Petitioner’s
September 4, 2018 Complaint. The 8th Circuit denied Petitioner’s alternative
request for rehearing en banc or before the panel on June 10, 2020. Their
mandate issued on June 17, 2020. This Court has jurisdiction
under 28 U.S.C. § 1254(l).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The following provisions of the US Constitution requires of the States
separation of powers in the taking of private property:
1. US Constitution Amendment XIV Sec. V- “No State shall deprive any
person of life, liberty, or property, without due process of law.

6

2. U.S. Constitution Amendment XIV Sec. V No State shall make or
enforce any law which shall abridge the privileges or immunities of citizens of
the United States;. ... “ As a United States privilege and immunity US
Constitution Article IV Sec. 4- The United States shall guarantee to every
State in this Union a Republican Form of Government.
STATEMENT OF THE CASE
Respondents took Petitioner’s Nebraska license to practice law under an
attorney disciplinary system devoid of separation of powers (as required by
the Due Process Clause of the Fourteenth Amendment to the US
Constitution; the Privileges and Immunities clause of the Fourteenth
Amendment; and Article V Sec. 4 of the US Constitution {states required to
have a Republican Form of Government}). After their August 31, 2018
opinion, Petitioner sued Respondents under 28 USC 1331 (federal question
jurisdiction) and 42 USC 1983 in the US District Court on September 4, 2018.
The District Court dismissed Petitioner’s claim on June 6, 2019. The Eighth
Circuit affirmed without opinion on May 1, 2020, and denied both panel and
en banc rehearing on June 10, 2020. The 8th circuit mandate issued on June
17, 2020.
REASONS FOR GRANTING THE WRIT
The 8th Circuit has decided two important questions of federal law in ways
that conflict with decisions of this Court.

7

<■>

Standing for Petitioner’s Facial Claim
District of Columbia Court of Appeals v. Feldman, 460 U.S. 462 (1983):
Feldman was admitted to practice law in Virginia and Maryland but was not
a graduate of an ABA approved law school. For that reason the District of
Columbia Bar denied him admission to practice. The denial was affirmed by
the D.C. Court of Appeals. Under 42 USC 1983 Feldman sued in US District
Court alleging the federal unconstitutionality of the DC Bar admission rules.
This Court ultimately dismissed any of Feldman’s as applied claims under
Rooker v. Fidelity Trust Co.. 263 U.S. 413 (1923) as an impermissible
collateral attack in federal district court (versus by cert, to this Court) on a
final state court judgment, but on remand allowed the case to continue on his
facial claims. A victory would then have granted Feldman the D.C. attorney
license he was denied. As such this Court presumed Feldman to have
standing on his facial claims.
Mosbv v. Ligon, 418 F.3d 927 (8th Cir. 2005): At least part of Attorney
Mosby’s federal challenge to her being publicly reprimanded for violating
Arkansas attorney disciplinary rules was dependent on conduct particular to
her (as applied), not a mere facial challenge. Dismissal under RookerFeldman was therefore appropriate. Assuming Mosby had properly pled a
facial challenge, the 8th circuit found standing was lacking because Mosby’s
public reprimand as an attorney was done and over with—and it was
speculative at best if she would ever face attorney disciplinary action again.

8

Petitioner’s facial claim is like Feldman. His license revocation is forever
(similar to Feldman’s denial to practice law in D.C.), and a favorable federal
decision would in both cases grant a license (admission for Feldman,
reinstatement for Appellant). If this Court found standing for a facial claim
where Feldman if successful would have gotten a DC license to practice law
which he never had before, certainly standing exists for the Petitioner where
if successful he will get back a license he had for 25 years. Assuming
arguendo Mosbv opined correctly on standing for facial claims, Petitioner’s
claim is unlike Mosby’s where her harm was a singular public reprimand.
Misapplying Mosbv’s holding to facial claims with enduring harms like those
in Feldman and the Petitioner’s conflicts with this Court’s standing
determination in Feldman.
Rooker-Feldman For As Applied Claims
Assuming without conceding Petitioner’s US District Court claim was an
as applied one, the lower courts misapplied Rooker-Feldman.
The Rooker-Feldman doctrine applies only to cases where the state
proceedings have ended. Exxon Mobil Corn, v. Saudi Basic Industries Corn..
544 U.S. 280 (2005). The Nebraska Supreme Court issued its opinion on
August 31, 2018. Petitioner filed his 42 USC 1983 claim against the
Respondents in US District Court on September 4, 2018—and therein pled
his then intent to move in state court for a rehearing in that original (not
appellate) state proceeding. Petitioner in fact moved, for rehearing on

9

October 12, 2018—which was summarily denied on October 24, 2018. At the
time of Petitioner’s September 4, 2018 US District Court Complaint the state
court proceedings were not ended.
Notwithstanding Rooker-Feldman was invoked against the Petitioner,
and circuit opinions contradictory to Exxon Mobile Corn, relied upon in doing
so. See Dornheim v. Sholes. 430 F.3d 919 (8th Cir. 2005) relying upon

Federacion de Maestros de Puerto Rico v. Junta de Relaciones. 410 F.3d 17,
24 (1st Cir. 2005).
RULE 33 COMPLIANCE
The undersigned certifies that to the best of his knowledge the foregoing
Petition does not exceed the word or page limitations of Rule 33.
CERTIFICATE OF FILING AND SERVICE
The undersigned certifies that on the date below he filed and served the
foregoing Petition for Writ of Certiorari via US first class mail, postage
prepaid, as follows ^
NE Attorney General
2115 State Capitol
Lincoln, NE 68509
Attn: James Smith
(1 copy)

Clerk of the US Supreme Court
Washington, DC 20543
(Original only as per Court’s
April 15, 2020 Covid Order)

10

. *

Dated this 14th day of August, 2020.
Respectfully Submitted,
JOHN C. NIMMER,
Petitioner,
,

x

:

Jojm C. Nimmer
1429 S. Grandview Ave. #8
Papillion, NE 68046-5783
402-590-9049 (new tel. #)
Pro Se Petitioner

11

